Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Blackfeet Fish and Wildlife DepartmentMontana

Report No. GR-60-04-008 


July 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Blackfeet Fish and Wildlife Department (BFWD), Montana. The purpose of the grants is to enhance community policing. The BFWD was awarded a total of $705,092 to hire four new full-time sworn officers, and to provide equipment and training for the officers.
We reviewed the BFWD's compliance with six essential grant conditions and found no material weaknesses in the areas we tested related to: budgeting for local officer positions, local match requirements, hiring of additional officers, retention of officer positions, and community policing. However, we found weaknesses related to reimbursement requests. As a result of the deficiency identified below, we question $18,375 in grant funds received.1 Specifically we found:

The BFWD received reimbursements of grant funds in excess of costs incurred per the accounting records for TRGP Hiring Grant No. 2002HHWX0021.

These items are discussed in detail in the Findings and Recommendation section of this report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.